U.S.

ET! C

IN THE

iJ

OFF in".'"

t.. F

(

SUPREME COURT OF THE UNITED STATES

)11

01/ i

L

— PETITIONER

(Your Name)

vs.

1-(„viv, y`6,1 H °50 1-&%)

tick/ k(°-) 1)1 441 fi\14,1
10,
RIESPONDENT(S)

L511 67

f`

ON PETITION FOR A WRIT OF CERTIORARI TO

0-FA-ovej

Sct.X 9-r-A1-4

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

c7vo W 0 /

b'b

(Your Name)
a(cm

[V4-k.

(Address)

(City, State, Zip Code)

(Phone Number)

Pty

hecv- 1)15

0.„)

TABLE OF APPENDICES
Appendix A - GAGUT NEWS COVERAGE, US GOVERNMENT/SENATOR SUPPORT
AND NOBEL PRIZE IN PHYSICS NOMINATION LETTERS
A-1
Appendix B - EVIDENCE OF POLARIZATION BY NON-BLACKS TOWARDS GAGUT
B-1
Appendix C - CRANWELL & MOORE P.L.C., ATTORNEYS AT LAW RECOGNIZED THAT
DISCRIMINATION CAN BE A MEDICAL MALPRACTICE AND CROWE
ARNOLD & MAJORS, LLP "WHEN DISCRIMINATION REACHES THE
LEVEL OF MEDICAL MALPRACTICE"
C-1
Appendix D - US NEWS ARTICLE "RACIAL BIAS IN MEDICINE LEADS TO WORSE
CARE FOR MINORI LIES"
D-1
Appendix E - WEBSITE http://tuskegeestudy.weebly.com/pollard-v-united-states.html
E-1
Appendix F - NATIONAL CENTER FOR BIOTECHNOLOGY INFORMATION (NCBI)
ARTICLE "TUSKEGEE AND THE HEALTH OF BLACK MEN"

F-1

Appendix G - HARVARD UNIVERSITY LAW SCHOOL DOCUMENT ENTITLED "DISSECTING
RACIAL DISPARITIES IN MASS. CRIMINAL JUSTICE SYSTEM' BY BROOK
HOPKINS AND FELIX OWUSU
G-1
Appendix H - VERA INSTITUTE OF JUSTICE INJUSTICE STATISTICS FIGURE FOR NEW YORK
STATE
H-1
Appendix I - NEW YORK TIMES ARTICLE "'VILE, RACIST POSTINGS' BY N.Y. COURT
OFFICERS INCLUDED OBAMA IN A NOOSE"
I-1
Appendix J - NEW YORK TIMES ARTICLE "TEARS, HUGS AND FRESH CLOTHES:
NEW JERSEY PRISONERS REJOICE AT RELEASE"

J-1

Appendix K - GOOGLE DEFINITION OF DISCRIMINATION

K-1

Appendix L - GAGUT NEWS ARTICLES NEWSBREAK, THE #1 SOURCE OF GLOBAL
INTELLIGENCE NEWS

L-1

PETITION FOR REHEARING EN BANC
Pursuant to Rule 44 of this Court, the petitioner, hereby respectfully petitions for
rehearing of this case before a full nine-Member Court en bans..
Discrimination is defined by google as "the unjust or prejudicial treatment of
different categories of people or things, especially on the grounds of race, age, or sex"
(Appendix K). When you have a criminal medical malpractice it isn't not a benign mistake
and there must be a reason for it.
It has been well known that discrimination and medical malpractice are connected.
For example Cranwell & Moore P.L.C., Attorneys at Law recognized that discrimination
can be a medical malpractice https://www.cranwellmoorelaw.com/blog/2018/04/candiscrimination-be-a-form-of-medical-malpractice/ (Appendix C):
"..,Doctors are like any other people, though, and they often carry prejudices that
they may consciously or subconsciously act on. When it comes to providing health care, this
can seriously affect the treatment a patient receives...Every patient, in fact, should be on
the lookout for these common forms of medical malpractice that may be fueled by
prejudice or discrimination.
Inferior treatment
According to a study by the Center for Justice and Democracy. minorities are more
likely to be victims of preventable medical errors than other patients. There are many
factors that influence this—less access to medical care, lack of insurance and language
barriers are just a few. Nonetheless, there is no excuse for a preventable medical error,
especially if it is the result of a physician's own prejudice.
Denial of care
The aforementioned study also mentions minorities' lack of access to primary care
medical treatment. As a result, many underprivileged patients go to the emergency room to
seek care. Because of the hectic nature of this environment, professionals may flatly deny
patients care even when the sufferers have a serious condition that needs treatment. People
should take seriously any denial of care and refusal to treat."
Another law firm, Crowe Arnold & Majors, LLP, has also recognized very clearly
that discrimination and medical malpractice are connected in a post on their website titled
1

"When Discrimination Reaches the Level of Medical Malpractice" https://camlawIlp.com/
discrimination-reaches-level-medical-malpractice/ (Appendix C). It states the following;
"...Although discrimination in the healthcare industry is illegal, unethical, and
morally repugnant, it still happens every day in the United States..."'
"Discrimination Against People of Color
For decades, research has shown that minority groups such as African-Americans
and Latinos experience more illness and premature death compared to white people in the
United States. While efforts have been undertaken and laws have been passed to try to
offset this, the reality remains: people of color, as a whole, receive less effective medical
treatment than people who are white in this country. Discrimination happens in many
different ways. often subconsciously, but the result is that people in minority groups have
their illnesses go untreated, do not receive proper pain management, and live shorter lives
...." and also states "Physicians who discriminate against their patients—even if they do so
unintentionally—can be held responsible through a medical malpractice lawsuit if a patient
is injured by their neglect."

5.

US News also recognized the connection between discrimination and poor

health/medical malpractice in the article "Racial Bias in Medicine Leads to Worse Care for
Minorities" https://health.usnews.com/health-news/patient-advice/articles/
2016-02-11/racial-bias-in-medicine-leads-to-worse-care-for-minorities (Appendix D ),
which states:
"...Mounting research fords that racial bias and discrimination in health care as well
as outside of medicine contribute to poor health for African-American patients and other
racial and ethnic minorities. "I believe that a racist system of health kills people. There is
ample evidence to show that," says Wyatt (Dr. Ron Wyatt, a black Doctor who was
discriminated against a hospital while he was a patient at said hospital) , who cowrote an
opinion piece on racial bias in medicine for the Journal of the American Medical
Association in August.
"Some people are just aware of it; they're just racist, explicitly biased — prejudiced
and biased. ... Others aren't." Wyatt says; he and other experts say that today, health care
provider biases are typically more subtle. "The problem with it is we continue to see bad
outcomes for black folks, and at some point we've got to say, whether explicit bias,
unconscious bias — whatever it is. we need to know it and intervene so people live longer
and live healthier..."
2

The website, http://tuskegeestudy.weebly.com/pollard-v-united-states.html
(Appendix El. states that Attorney Fred D. Gray from Alabama, the civil rights lawyer for
the petitioners (Black Men who were victims of the Tuskegee Syphilis Experiment) in
Pollard v. United States, said that "...The Study (Tuskegee Syphilis Experiment) was
racially motivated and discriminated against African Americans in that no whites were
selected to participate in the Study: only those who were poor. uneducated. rural, and
African American. were recruited...".
The United States government website for National Center for Biotechnology
Information (NCBI) has published a recent article www.ncbi.nlm.nih.gov/pmc/
articleslPMC6258045/ (Appendix F) from 2017 entitled "TUSKEGEE AND THE HEALTH
OF BLACK MEN" by Marcella Alsan and Marianne Wanamaker states the following:
"The Tuskegee Study became a symbol of their (Black Men) mistreatment by the medical
establishment, a metaphor for deceit, conspiracy. (medical) malpractice, and neglect, if not
outright genocide...African-American men (currently) have the worst health outcomes of
all major ethnic. racial, and demographic groups in the United States....".
For example petitioner presented the Defendant Hospital deliberately dismissing
petitioner's gout without conducted any laboratory test of gout during Petitioner's arrival, and
fraudulently concealed the petitioner's gout, leaving petitioner to suffer unnecessarily for 12
days, and then when petitioner returned to Huntington Hospital with wounds from gout on
petitioner's feet, the defendant hospital sent Hospital Security to medical malpractice
assault/patient dump the petitioner with his feet unbandaged out into the cold for over an hour to
die and their sister hospital, North Shore Univ. Hospital continued the fraudulent concealment of
3

petitioner's gout and ambushed petitioner with a medical malpractice battery in the OR all prove
the medical malpractice of the hospital wasn't not a benign mistake, and therefore the medical
malpractice is a criminal medical malpractice. THEREFORE A MEDICAL MALPRACTICE
ASSAULTMATTERY IS CLEARLY UNJUST AND PREJUDICIAL TREATMENT AND
THEREFORE A CLEAR CASE OF BEING TREATED VERY DIFFERENTLY AND
WITH PREJUDICE AND THEREFORE A DISCRIMINATION CASE, A VIOLATION
OF SECTION 1557 OF THE ACA, SINCE THE DEFENDANT HOSPITALS ARE NOT
SUPPOSED TO BE IN THE BUSINESS OF MEDICAL MALPRACTICE
ASSAULTING/PATIENT DUMPING/BATTERING OF PATIENTS, A CLEAR
VIOLATION OF SECTION 1557. AND A CLEARLY A DENIAL OF ACCESS TO
MEDICAL CARE, A VIOLATION OF TITLES XVIII AND XIX OF THE SOCIAL
SECURITY ACT (MEDICARE AND MEDICAID) AND A VIOLATION OF THE
USAGE OF THE FEDERAL FUNDS THE DEFENDANT HOSPITALS RECEIVE AS A
MEDICARE/MEDICAID PARTICIPANT BOTH VIOLATIONS OF SPECIFIC US
FEDERAL REGULATIONS/LAWS WHICH BRING THIS CASE TO THIS COURT AS
18 USC § 1331 DICTATES). SECTION 1557 CREATES PRIVATE RIGHTS OF ACTION
ALONG WITH A MULTITUDE OF REMEDIES, INCLUDING COMPENSATORY
DAMAGES. ALSO SECTION 1557 APPLIES TO ANY HEALTH PROGRAM OR
ACTIVITY, ANY PART OF WHICH RECEIVES FUNDING FROM HHS (LIKE
HUNTINGTON AND NORTH SHORE UNIV. HOSPITAL THAT ACCEPT
MEDICARE/DOCTORS WITHIN THEIR HOSPITALS WHO ACCEPT MEDICAID).
9.

The removal of the Gout video that was on the defendant hospitals' official website, after
4

the petitioner presented the evidence to the court in 2018, also proves that defendant hospital's
medical malpractice was not benign and they were desperately trying to cover up they knew the
medical malpractice was not benign, but intentional and therefore criminally done. This is clearly
unjust and prejudicial treatment and therefore a clear case of being treated differently and with
prejudice and therefore a discrimination case (violation of Section 1557 of the ACA).
Criminal medical malpractice in the petitioner's case has already been established as a
discrimination case and therefore what remains is to additionally reenforce the discrimination
aspect of the criminal medical malpractice case beyond what was proven in the criminal medical
malpractice case of the petitioner when it was established the petitioner is a member of the
protected class within section 1557 and of the Black GAGUT Family who was blessed by GOD
with the GAGUT discovery.
Petitioner, as a Black Man, comes from the Black Family blessed with the discovery of
GOD ALMIGHTY'S GRAND UNIFIED THEOREM (GAGUT) revealed by GOD to Professor
Gabriel Audu Oyibo (the petitioner's father) in 1990. This GAGUT discovery coming from the
Black People, has been largely ignored by the Non-Black society and so therefore it follows the
Black family members of the GAGUT family can also be largely ignored by the Non Black
society which is unjust and prejudicial treatment from the Non-Blacks (discrimination). It also
follows that a case of a member of the GAGUT Black family, like the petitioner can be largely if
not totally ignored by the Non-Black court/judges/society (discrimination). GAGUT is the
ultimate/biggest revelation of a discovery by GOD to humanity which comes from Professor
Gabriel Audu Oyibo, a Black Man. Wikipedia for example has boldly ignored/deliberately
refused to have any wikipedia entry for GAGUT and Professor Gabriel Audu Oyibo available on
5

their site for the public, due to the fact of GAGUT comes from a Black Man, Professor Gabriel
Audu Oyibo, which is a fraudulent concealment as well as clearly unjust and prejudicial
treatment from Non-Blacks to Blacks (Discrimination). If Wikipedia, which is a Non-Black run,
operated and controlled website can deliberately ignore and fraudulently conceal that ultimate
revelation of GAGUT, one can see how the same group of Non-Blacks can deliberately ignore
and fraudulently conceal the Petitioner's infallible case, which is clearly unjust and prejudicial
treatment from Non-Blacks to Blacks (Discrimination).
12.

GAGUT has been largely ignored by the Mainstream Non-Black Media despite being

covered by ABC TV, as well as News 55 and News 12 Long Island where Professor Gabriel
Audu Oyibo was being presented/interviewed by Richard Rose and Doug Geed respectively
about being nominated for Nobel Prize in Physics back in 2002, by the newspapers here in
America, despite People's Daily of China the fifth largest newspaper in the world, covering
GAGUT in 2006 as well as the following articles on GOD ALMIGHTY'S GRAND UNIFIED
THEOREM NICKNAMED GAGUT Gijj=0, which is the ultimate truth and therefore the ultimate
justice as indicated by Newsbreak, the #1 source of global intelligence news (Appendix L) and by the
New York and US Government despite support from Senators like the late Harvard Professor,
Professor/Senator Daniel Moynihan, the late Senator John McCain, Former Senator Hillary
Clinton, Senator Chuck Schumer and former Governor David Patterson being aware of GAGUT
and petitioner's family being blessed with GAGUT. GAGUT has also been demanded by the
Faculty, Staff and Students of Ivy League Universities like Harvard, MIT and Columbia
University among others, and Goettingen University from Germany ranking GAGUT as the
greatest mathematics work of all time and recommended to be studied by Goettingen at the

6

center of the GAUSS Year 2005 in honor of Professor Carl Friedrich Gauss, the greatest
mathematician since antiquity before GAGUT. Also the US Federal Government Sponsored
GAGUT Yale University Study has recognized the Black Race as the most intelligent race, with
raw intelligence quotient data score of 28 for blacks compared to raw intelligence quotient data
score of 19 for the non-blacks. The GAGUT Yale University Study infallibly proved that Black
People are the most intelligent race (Appendix A ),
13.

Varieties of the feelings/responses to the GAGUT discovery, a revelation by members of

the GAGUT Black family has led to the large polarization of the human society, especially from
certain Non-Black peoples who wished they had been blessed by GOD with the discovery of
GOD ALMIGHTY'S GRAND UNIFIED THEOREM (GAGUT) revealed by GOD to Professor
Gabriel Audu Oyibo, to viciously retaliate against Petitioner and his family for such a blessing.
The late Professor Senator Daniel Moynihan and Senator John McCain both encountered such
irrational polarization against GAGUT by members of the government and the National Science
Foundation (NSF) back in 2000, and Petitioner's home was Firebombed on February 28, 2015
after a threat was publicly made that Petitioner's family "Deserved the holocaust" due to
petitioner's family being blessed with the discovery of GAGUT (Appendix B). Since then
petitioner has lived indigently, particularly in a trailer for the last 4+ years. Again from the
evidence presented by petitioner of the Government, Media and Society ignoring of GAGUT,
since Non-Blacks have been largely deliberately ignoring that ultimate revelation from GOD of
GAGUT, one can see how the same group of Non-Blacks can deliberately ignore the Petitioner's
infallible medical malpractice case, which is clearly unjust and prejudicial treatment from NonBlacks to Blacks (Discrimination). Petitioner has also presented the parallel's to the court of this
7

" case to Pollard v. United States which pertained to the Tuskegee Syphilis Experiment. In
Pollard, all of the victims of the criminal medical malpractice were Black, The prejudicial
treatment is a departure from the norm and the norm is accepted medical practice which was
totally intentionally ignored and completely abandoned in favor of a criminal medical
malpractice using a fraudulent concealment medical malpractice. GAGUT, a discovery from
the Black People, being deliberately ignored by Non Blacks because of race is a racial
discrimination, just like the Tuskegee Syphilis Experiment was a racial discrimination.
Since Petitioner case is completely paralleled with the Tuskegee Syphilis Experiment
which was a criminal medical malpractice case that qualified as a racial discrimination and
since GAGUT is being deliberately ignored by Non Blacks because of race, which is a racial
discrimination and petitioner is a member of the Black GAGUT Family, therefore
petitioner medical malpractice case is a racial discrimination case, where petitioner was
racially discriminated by Non-Blacks particularly in the defendant hospitals due to the fact
of the Petitioner being a member of the Black GAGUT Family who were blessed with the
ultimate discovery of GAGUT. Petitioner's racial discrimination case is a gross violation of
Section 1557 of the ACA which is violation of federal law and provides a private cause of
action for this petitioner. Petitioner also demands the granting In Forma Pauperis for
petitioner since petitioner has no money and clearly qualifies for it and finding the
Defendant Hospitals guilty of grossly violating Section 1557 of the ACA in their vicious
racial discrimination of the petitioner.
The clear evidence of the criminal medical malpractice is in the surveillance videos, that
was criminally refused to be released by the Courts, which is a fraudulent concealment of the
8

crime. The Courts deliberately ignoring this criminality also coincides with the point about in
particular this case being a racial discrimination case because it clearly shows that the petitioner a
BLACK MAN has no rights under the US constitution which is a categorical denying, ignoring
and neutralizing of the 13th, 14th and 15th Amendments which makes the amendments null and
void and a blatant disrespect of the US Constitution. This decision of the Supreme Court
deserves some serious and urgent decision to declare that previous Supreme Court Action to be
null and void and the judges responsible for that decision to be reprimanded immediately . Again
Petitioner has no rights under the US constitution Federal or otherwise to get justice, which the
Defendant Hospitals, along with the State and Federal courts judges, who all were acting as
lawyers of the defendants, affirm that Petitioner has no rights afforded under the US constitution
just like the infamous Dredd Scott case (Dredd Scott v. Sandford) and the equally infamous
decision of the Supreme Court of the United States that upheld and reaffirmed that position.
The defendants hospital is governed by law, it has rules and regulations to protect patients
from attack and abuse. They are supposed to cater to all races. Petitioner, who is a Black Man,
was denied his patient rights which is extremely wrong and the courts have denied the petitioner
any justice in the case. The one particular entity described by the US constitution that should be
denied justice is Black people. The courts are therefore using the US constitution prior to the
amendments where Black People have no rights and are totally denied justice at all costs.
Therefore the petitioner's has infallibly proven his medical malpractice case also as a
racial discrimination because it is wrong and any decision other than finding the defendants
guilty by the courts state or federal is wrong because it goes against infallible truth like 2+1-3=0.
Again the petitioner's case has been a racial discrimination from the start and has been a total
9

'denial of justice. The federal regulation laws are an approximation of the GAGUT which is the
ultimate law. The case has being infallibly proven to be a child is infallibly related to its
biological mother, and the courts have not been able to disagree with that position.
18.

Also there has been reports from the New York Times about New York Courts having

pervasive examples of racial bias — some explicit, some subtle — in New York State's court
system including a high ranking court officer depicting an illustration of President Barack Obama
with a noose around his neck on social media. Another white officer referred to a Black court
officers as "one of the good monkeys."A third white court officer commented to a white
colleague that he would have done better on a firearms test if he had been given a "Sean Bell
target," a reference to an unarmed Black man killed by the police in 2006. The incidents of overt
racism were among several mentioned in a new report about racial bias in the New York State
Court system commissioned by Chief Judge Janet DiFiore after national protests this summer
against institutional racism in the criminal justice system. Jeh C. Johnson, a former Homeland
Security secretary under President Obama, led the team that did the review. His report, released
with little fanfare last week, found pervasive racism in New York courts, both explicit and
implicit, from judges, court officers and lawyers. The accounts of racial bias the team collected
bore a striking similarity to testimony in another review from three decades ago, the report said.
"The sad picture that emerges is, in effect, a second-class system of justice for people of color in
New York State," wrote Mr. Johnson, a partner at Paul, Weiss, Rifkind, Wharton & Garrison.
https://www.nytimes.com/2020/10/19/nyregion /nyc- courts-racism.html (Appendix I ). So it is
clear that a racial discrimination case like the petitioner's case hasn't got a fair hearing and in
fact can be ignored and be denied justice by the courts.
10

19. GOD ALMIGHTY'S GRAND UNIFIED THEOREM NICKNAMED GAGUT IS THE
GOD ORDER REVEALED BY GOD TO A BLACK MAN CALLED PROFESSOR GABRIEL
AUDU OYIBO, THROUGH WHICH GOD ORDAINED THAT SAME BLACK MAN
PROFESSOR GABRIEL AUDU OYIBO WITH THE ULTIMATE INTELLIGENCE, ETA SUB
INFINITY WHERE 77n = gni

* x71 AND "n+1" IS THE INTELLIGENCE QUOTIENT (IQ)

WHICH GOD BLESSED PROFESSOR GABRIEL AUDU OYIBO WITH "n+1" OF INFINITY
AND SINCE GOD ALSO BLESSED BLACK PEOPLE TO SHARE THE SAME GENES
WITH PROFESSOR GABRIEL AUDU OYIBO GOD HAS ORDAINED THE BLACK RACE
THE MOST INTELLIGENT, RICHEST AND UNDEFEATABLE RACE, THEREFORE
BLACK PEOPLE MUST GET JUSTICE. For example New York Times article "Tears. Hugs
and Fresh Clothes: New Jersey Prisoners Rejoice at Release"
https://wwvv.nytimes.comJ2020/11/05/nyregioninj-prisoner-release-covid.html (Appendix J) in
New Jersey "More than 2,000 inmates were freed" and the article says that "The initiative grew
out of legislation signed into law last month and comes at a moment of intense national debate
over transforming a criminal justice system that imprisons people of color in disproportionate
numbers...." which is the beginning of righteous responses to GAGUT and also a statement that
clearly demonstrates the huge denial of justice and human rights as well as US constitutional
rights to the Black people with extraordinary impunity, similar to what was going on in Nazi
Germany to the Jewish people that must be reversed and punished urgently by the Supreme Court
and all others in order to avoid the consequences that occurred as a result of that act, which
resulted in the destruction of 85 million human beings in order to resolve that horror for the

11

Jewish People, since a very infallibly parallel exist between the Jewish People receiving that
horror in Nazi Germany up until the time they were blessed with the formula E-MC2=0 on the
one hand and Black People receiving a similar horror from the American Government for over
500 years, until 1990 when GOD blessed the Black People with the ultimate totality of formulas
Gij,j=0 on the other hand and since correct formulas constitutes GOD ORDERS, if the Finite
Jewish People Formula E-MC2=0 can be used to destroy the lives 85 million human beings in
order to resolve the horror, the Infinite Total Black People Formula of Gijj=0 can not only be
used to destroy the solar system including our planet and wiping out all of humanity, but can also
be used to destroy the whole universe resulting in the much dreaded total armageddon that
reverses the whole creation process, which no intelligent or rational set of human beings can
consider that option as the solution to these horrors being endured by Black People for over 500
years, which compels the Supreme Court and all other Courts to deliver justice to the Black
People particularly the petitioner's case.
20.

The statistical data compiled by Vera Institute of Justice, which on wikipedia Vera Institute of

Justice founded in 1961 by philanthropist Louis Schweitzer, works closely with government and civic
leaders "to drive change, to urgently build and improve justice systems that ensure fairness, promote
safety, and strengthen communities" (vera.org Appendix H ) also confirmed by a recent Harvard
University Law School document entitled "Dissecting racial disparities in Mass. Criminal justice
system" by Brook Hopkins and Felix Owusu (Appendix G ) that was ordered by the Chief Judge Ralph
Gants, confirmed it for the state of Massachusetts therefore it is expected a study in the state of New
York is verified to be correct as well. That Vera Institute report states that for Massachusetts the prison
population of Black People is 27% whereas the total population is 7%, which is almost 4 times more than
the total population which means that a minimum of 75% of the decisions to be wrong. In the state of
12

.New York the prison population of Black People is 48% whereas the total population is 15%, this means
that a minimum of 67% of the decisions to be wrong.
In addition in the petitioner's case Oyibo v. Huntington Hospital , the New York State and
Federal Courts denied the petitioner ANY DISCOVERY, including a decisively clear evidence of
medical malpractice by Huntington Hospital (as well as a racial discrimination) in a video footage of the
Petitioner being medical malpractice assaulted/medical malpractice patient dumped by the Defendant
Hospital's staff and therefore ending up with the judges acting as lawyers for the defendants which led to
a fraudulent decision which is equivalent with a child is not infallibly related to its biological mother,
which should persuade the Supreme Court to reverse the lower court's decision of the petitioner's case
and find the defendant's guilty of medical malpractice, particularly because the Vera Institute of Justice
injustice statistics figure for New York State (Appendix H ), Black People are 15% of the total
population but 48% of the prison population. If there was justice the figure of the Black People would be
15% of the prison population , therefore Black People being 48% of the prison population means there is
a ratio of those who got justice and those who did not get justice of 15 to 33.
The mere fact of the Black People are 48% of the prison population instead of 15% means that
every case had a chance of being right or wrong, since 15%, NOT 48% is expected to be the right
percentage of the correct decisions. That means the petitioner case has a chance of being a wrong
decision or a right decision. However what verified it to be a wrong decision are the following 1) the so
called judges acting as lawyers for the defendants, along with the defendants refused to released the
video footage that clearly proved the Defendants Hospital's staff were beating up the petitioner who was
their patient, not only were the defendant's guilty of medical malpractice but also guilty of criminal
medical malpractice and racial discrimination 2) the judges acting as lawyers for the defendants and the
defendants, by deciding the defendants were not guilty of medical malpractice, refused to understand the
infallible truth that a child (criminal medical malpractice assault subset) is actually a subset of medical
13

malpractice. Therefore, these two points 1) and 2), along with the Vera Institute of Justice figure,
verifying the petitioner case to have a possibility to have been decided wrong, the defendants are guilty
of medical malpractice and racial discrimination against Usman Oyibo. GOD bless you.
CONCLUSION
For the foregoing reasons, the petition for rehearing should be granted.
(-1\

November 7, 2020
CERTIFICATE OF COUNSEL

I hereby certify this petition for rehearing presented in good faith and not for delay
restricted to the grounds specified in Supreme Court Rule 44.2.
CA or./44)

14

P

